:*:V.

No. 20-7399

IN THE
Supreme Court of the United States

JENITA CLANCY
Petitioner,
v.
Lloyd James Austin III
Secretary, Department of Defense
Respondent

ON WRIT OF CERTIORARI
TO THE UNITED STATES SUPREME COURT

AMENDED PETITION FOR REHEARING

JENITA CLANCY
Pro se
573-855-5878

RECEIVED
MAY 3 - 202|
supr'eme*nnnnT~Fi,y

M

Pursuant to Rule 44 of this Court, petitioner Clancy, hereby respectfully
petition for rehearing of this case. This case involves disability discrimination and
harassment, retaliation and post-employment retaliation.
Petition alleged that her immediate supervisor Tina Groves at DeCA
Fort Riley Kansas discriminated against her in violation of the Rehabilitation
Act of 1973, Section 501 and 505 as amended, by insisted Clancy to sign
resignation form (SF-52) rashly, and discharging her employment
immediately after she opposed to return to a belligerent and provocative
confrontation meeting about the (management did not modify News Release
62-16) for the allegedly pretextual reason of performing poorly. Clancy
further claimed that the discharged was in retaliation based on opposition for
the harassment and retaliation repeatedly on a series of baseless counselling
two to three times a week from July 2016 to November 3, 2016, in violation
of Title VII Civil Rights Act of 1964
The Kansas District Court did not give petitioner Clancy any opportunity to
file

evidence

on her

opposition

for summary judgement.

Granted

defendant/respondent Summary Judgement without evidence from petitioner on
the ground that petitioner Clancy did not have expert witness and no reference on
the record. The Court ordered that Clancy must pay cost to defendant. The Tenth
Circuit Court of Appeal affirmed all judgement of Kansas District Court.
Page 1 of 9

CLAIM UNDER SECTION 505 & 501 OF THE REHABILITTION ACT
1973 AS AMENDED
Discrimination based on disability
Petitioner Clancy suffered to a demeaning comment from her immediate
supervisor Tina Groves about Clancy “position as a secretary was not good for
mental health” on a numerous closed-door counselling about the fabricated
performance issue after Clancy was continuously opposing her supervisor
harassment and retaliation. Groves made it clear in writing, she wanted Clancy
vacated her secretary position. (ECF No. 8, pp. 325, third para.)
Section 505 of the Rehabilitation Act of 1973, 29 U.S.C. 794, was one of the
first federal civil rights statute that protect an employee with disability from
discrimination. Baker v. Board ofRegents, 991 F.2d 628,631 (10th Cir. 1993), When
Congress enacted the Americans with Disabilities Act of 1990 (ADA), it used
Section 505 as a benchmark, directing that nothing in the ADA "be construed to
apply a lesser standard than the standards applied under title V of the Rehabilitation
Act of 1973," 42 U.S.C. 12201(a), and preserving the existing rights and remedies
of Section 505, see 42 U.S.C. 12201 (b).
It is undisputed that prior to 1992, Section 505 prohibited employment
discrimination against persons with disabilities by any entity that received federal

I

Page 2 of 9

financial assistance. Congress intended that Section 505 govern the employment
practices of any program or activity that received federal financial assistance.
Consolidated Rail Corp. v. Darrone, 465 U.S. 624, 632 (1984); cf. Roberts v.
Progressive Independence, Inc., 183F.3dl215,1217 (10th Cir. 1999).
The language of Section 505 admits of no exceptions. It provides that
otherwise qualified individual with a disability in the United States shall, solely by
reason of her or his disability, be excluded from the participation in, be denied the
benefits of, or be subjected to discrimination under any program or activity
receiving Federal financial assistance." 29 U.S.C. 794(a)
Section 505(d) provides that the standards used to determine whether this
section has been violated in a complaint alleging employment discrimination
under this section shall be the standards applied under title I of the Americans with
Disabilities Act." 29 U.S.C. 794(d) The word "standard" means a measure or rule
applicable in legal cases such as the standard of care in tort actions. Black's Law
Dictionary 1404 (6th ed. 1990). It refers to the rules regarding what constitutes a
"violation. " By its plain meaning, the provision does not incorporate the coverage
provisions of Title I or anything other than standards of liability. This Court has
already recognized that, even after the 1992 amendments, Section 505 cannot be
i

read to incorporate Title I's "good faith efforts" defense to compensatory damages.

Page 3 of 9

See Roberts, 183 F.3d at 1223 (declining to engage in "creative statutory
construction").
The legislative history of the Rehabilitation Act Amendments makes clear
that Section 505 and its companion provisions were simply intended to "ensure
uniformity and consistency of interpretations," S. Rep. No. 357, 102d Cong., 2d
Sess. 71 (1992), so that entities subject to both Section 505 and Title I would be
assured of a uniform set of rules. Given that the various statutes and implementing
regulations had been enacted using different language over the course of two
decades, it was not surprising that differences had developed. Under Sections 501
and 505, a reasonable accommodation for an employee with a disability did not
include reassignment to a vacant position; Title I expressly include reassignment
as a potential required accommodation. Woodman v. Runyon, 132 F.3d 1330, 1339
& n.9 (10th Cir. 1997). By incorporating the "standards" of Title I into Section
505, Congress made sure that all employers governed by federal disability antidiscrimination law were subjected to the same requirements.
Senator Harkin thus explained during consideration of the Rehabilitation Act
Amendments, after outlining the various components of the duty not to discriminate
in Title I of the ADA, that "[n]ow those who are covered by title V of the
Rehabilitation Act will know that these are the definitions of reasonable
accommodation and discrimination that apply. They will also know that the
Page 4 of 9

standards governing preemployment inquiries and examinations, and inquiries of
current employees apply. Incorporating the ADA standards into the Rehabilitation
Act will assure that there will be consistent, equitable treatment for both individuals
with disabilities and businesses under the two laws." 138 Cong. Rec. 31522 (1992);
Freed v. Consolidated Rail corp., 201 F.3d 188, 194 (3d Cir. 2000) (The aim of
these provisions is to achieve substantive conformity and to avoid duplication of
effort).
Section 505 applies to all programs or activities “conducted” by federal
agencies such as Defense Commissary Agency (DeCA). The tenth Circuit has held
that Congress intended Section 501 to be the exclusive avenue for federal
employees to claim employment discrimination on the basis of disability, Johnson
v. United States Postal Service, 861 F.2d 1475, 1478 (10th Circuit 1988), and the
Supreme Court has held that, unlike Section 501, Section 505 does not waive
federal sovereign immunity for damage claims, Lane v. Pena, 518 United States
187 (1996).
CLAIM UNDER TITLE VII OF THE CIVIL RIGHTS ACT OF 1964
Harassment based on disability
Petitioner Clancy was subjected to intimidation. Her direct supervisor Tina
Groves threatened her on a series of closed-door counselling about the fabricated

Page 5 of 9

performance issue, verbally and in writing such as: Failing to follow my instruction
will result in progressive action; (ECF No. 8, pp. 469, last para.), Future issue
could result in the initiation of other adminstrative actions; {ECF No. 8, pp 325, 2nd
para., last line), and Insubordination.
Enforcement Guidance on Vicarious Employer Liability for Unlawful
Harassment by Supervisors. The Supreme Court made clear that employers are
subject to vicarious liability for unlawful harassment by supervisors. The standard
of liability set forth in these decisions is premised on two principles:
1) an employer is responsible for the acts of its supervisors;
2) employers should be encouraged to prevent harassment and employees
should be encouraged to avoid or limit the harm from harassment.
In order to accommodate these principles above, the Supreme Court held
that an employer is always liable for a supervisor’s harassment if it culminates in a
tangible employment action. However, if it does not, the employer may be able to
avoid liability or limit damages by establishing an affirmative defense that includes
two necessary elements:
a) the employer exercised reasonable care to prevent and correct promptly
any harassing behavior.

Page 6 of 9

b) the employee unreasonably failed to take advantage of any preventive or
corrective opportunities provided by the employer or to avoid harm
otherwise.
The Supreme Court, reasoned that vicarious liability for supervisor
harassment is appropriate because supervisors are aided in such misconduct by the
authority that the employers delegated to them. Therefore, that authority must be of
a sufficient magnitude so as to assist the harasser explicitly or implicitly in
carrying out the harassment. Burlington Industries, Inc. v. Ellerth, 118 S. Ct. 2257
(1998), and Faragherv. City of Boca Raton, 118 S. Ct. 2275 (1998).
Retaliation based on opposition & filing charged
On January 6, 2016, Petitioner Clancy has filed another EEOC complaint
against DeCA Fort Leonard Wood Missouri location. The defendant on this EEOC
complaint was Tina Groves former director at Fort Riley Kansas. Immediate
supervisor Groves violated DeCA policy for did not pay Clancy Sunday Premium
Pay on March 20, 2016, and did not pay Clancy earned overtime on May 31, 2016.
These were an abuse of authority, in violation of 5 U.S. Code § 2302 - Prohibited
Personnel Practice (PPP), and in violation of Title VII.
It shall be an unlawful employment practice for an employer to retaliate
against any of his employee because she has opposed any practice made an
Page 7 of 9

unlawful employment practice or because she has made a charged. Title VII also
prohibits employers from retaliating against employees based on an employee’s
opposition to employment discrimination or complaint of discrimination. See 42
U.S.C. § 2000e-3(a).
Post-Employment-Retaliation
Petitioner supervisor Tina Groves not only protested Clancy unemployment
claim, submitted falsified information about Clancy discharged but also denied that
the unemployment insurance never contacted them.
Unemployment Insurance Employer Handbook information, posted to the
Kansas Department of Labor website stated, that “when an individual file a claim
for unemployment, that individual’s last employer (DeCA Fort Riley) is mailed an
Employee Notice form K-BEN 44/45.” “If the employer protested the claim,
employer will select one of the four elements”.
The element DeCA chose was “Left work voluntarily without good cause
attributable to the work or the employer.” The element DeCA chose above was
mentioned two times on Clancy denial of unemployment letter. Line 7-8, and 1011 below the word "DECISION.” (EFC No.8, pp. 78-79, 100, 109, 176-178, 510511.) Employer Protest to the Benefit Charge, third element on (page 23) of
Kansas Unemployment Insurance Employer Handbook, (Pltf. Ex. G-2).

Page 8 of 9

United States Supreme Court, in a unanimous decision, has held that former
employees may sue under Title VII of the Civil Rights Act of 1964 to challenge
alleged retaliation by their past employers. Robinson v. Shell Oil Co. (95-1376),
519 U.S. 337 (1997).
For the foregoing reasons, the petition for rehearing should be granted. This
case is matter to Clancy. She was working for her retirement, she lost almost
everything after she was discharged immediately by her immediate supervisor on
November 3, 2016, including her health insurance. She lost peace of mind. She lost
her ability to earn an income that support herself and her defendant family.

Respectfully Submitted

April 28, 2021

C/0enita Clancy n
Pro se

Enclosure

Page 9 of 9

CERTIFICATE
Petitioner Clancy hereby certify that this petition for rehearing is presented
in good faith and not for delay.

^Jenita Clancy/
Pro se
April 28, 2021

No. 20-7399
In the
SUPREME COURT OF THE UNITED STATES
Jenita Clancy
Petitioner,
v.
Lloyd James Austin III
Secretary, Department of Defense
Respondent
CERTIFICATE OF SERVICE
I Jenita Clancy, do swear or declare that on this date, April 28, 2021, as required by
Supreme Court Rule 29, I have served the enclosed PETITION FOR REHEARING on
party's counsel, and on every other person required to be served, by depositing an envelope
containing the above documents in the United States mail properly addressed to each of
them and with first-class postage prepaid, or by electronic to defendant counsel on April
27, 2021.
The names and addresses of those served are as follows:
OFFICE OF THE CLERK
Supreme Court of the United States
Washington, D.C. 20543
SOLICITOR GENERAL OF THE UNITED STATES
Room 5614, Department of Justice
950 Pennsylvania Ave., N.W. Washington, D.C. 20530-0001
Counsel of Defendant, Defense Commissary Agency (DeCA)
Christopher Allman, Chris.AUman@usdoi.gov
Luke Sinclair, Luke.sinclair@usdoi.gov
enita Clancy

